No.

IN THE SUPREME COURT OF THE UNITED STATES

MARK JOSEPH DERRICO,
Petitioner
v.
STATE OF GEORGIA.

APPLICATION FOR AN EXTENSION OF TIME IN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF GEORGIA

To the Honorable Clarence Thomas, Associate Justice of the United
States and Circuit Justice for the Eleventh Circuit:
Pursuant to 28 U.S.C. § 2101(d) and Rules 13.5, 22, and 30.2 of this
Court, Mark Joseph Derrico (“Applicant”) respectfully requests a 60-day
extension of the time in which to file a petition for a writ of certiorari in this
Court, to and including Friday, January 3, 2020. The Supreme Court of
Georgia entered judgment on August 5, 2019, in Derrico v. The State, No.
S19A0665. A copy of the Supreme Court of Georgia’s opinion is attached as

1

Exhibit 1. See 831 S.E.2d 794 (Ga. 2019). A copy of the judgment/remittitur
is attached as Exhibit 2. This Court’s jurisdiction would be invoked under
28 U.S.C. § 1257. Applicants’ time to file a petition for a writ of certiorari in
this Court will currently expire on November 4, 2019. This application is
being filed more than 10 days before that date, and no prior application has
been made in this case.
Under Kolender v. Lawson, 461 U.S. 352, 357-358 (1983), the Court
has cautioned, “Where the legislature fails to provide … minimal
guidelines, a criminal statute may permit ‘a standardless sweep [that]
allows policemen, prosecutors, and juries to pursue their personal
predilections,” citing Smith v. Goguen, 415 U.S. 489, 575 (1974).

The

resulting rule—sometimes known as the void-for-vagueness doctrine—has
proven to have a blind spot, a presentation in which clearly arbitrary
enforcement is lost sight of in application.

As in the instant case, the

alleged victim meets the same criteria (the elements) of each of the statutes
or offenses under which Applicant Derrico was prosecuted. This is a sort of
arbitrariness per se, in that Defendant was prosecuted and convicted and
the alleged victim was not.
This case presents the question whether the void-for-vagueness
doctrine extends to cases such as Derrico’s, where courts have rested on the
authority of judges and juries to ratify arbitrary enforcement.

2

In the

decision below, the Supreme Court of Georgia wholly ignores arbitrary
enforcement because it concludes that the evidence was sufficient to convict
Derrico. The problem is that the evidence is also sufficient to convict the
victim who was not prosecuted, on each of the same charges.
Undersigned counsel is working diligently, but respectfully submits
that the additional time requested is necessary to complete preparation of a
petition for a writ of certiorari. Undersigned counsel represents Applicant on
a private retained but low bono basis. Undersigned counsel has represented
Applicant throughout this case, but has struggled with resources to manage
the case since the case has entered its appellate stages.

Undersigned

counsel has supported the case in part by way of his other trial and
appellate cases, from which he has not been relieved at any stage of the
proceedings for the case.
Substantial work remains to present the Petition for Certiorari in a
manner befitting the Supreme Court of the United States, to wit to
complete research on the authorities supporting this Court’s review, and to
prepare the petition and appendix for filing. Among other things, this case
requires detailed research of the void-for-vagueness doctrine, this Court’s
precedents

on

arbitrary

enforcement,

and

lower

courts’

differing

interpretations of those authorities. The undersigned counsel of record has
also faced numerous overlapping deadlines in other matters, including a

3

briefing deadline in the Georgia Court of Appeals on October 28, 2019.
Wherefore, Applicant respectfully requests that an order be
entered extending his time to file a petition for writ of certiorari
up to and including January 3, 2020.

Respectfully submitted,
/s/ Andrew T. Mosley, II
ANDREW T. MOSLEY, II
Counsel of Record
Drew Mosley, LLC
279 W. Crogan St.
Lawrenceville, GA 30046
(678) 480-9003
drew@mlawmail.com
October 22, 2019

4

